                                                                         Occupational Safety and
U.S. Department of Labor
                                                                         Health Administration
                           Office of Inspector General—Office of Audit




                                                                         OSHA Correctly Denied ED&D’s
                                                                         Incomplete NRTL Application




                                                                                              Date Issued: March 31, 2005
                                                                                              Report Number: 05-05-002-10-001
Department of Labor                                       MARCH 2005
Office of Inspector General
Office of Audit
                                                          OSHA Correctly Denied
                                                          ED&D’s Incomplete
BRIEFLY…
Highlights of Report Number: 05-05-002-10-001, a
                                                          NRTL Application
                                                          WHAT OIG FOUND
report to the Assistant Secretary for Occupational
Safety and Health. March 31, 2005
                                                          OSHA’s decision to deny ED&D NRTL
WHY READ THE REPORT                                       recognition and close its application was
                                                          justified because ED&D did not meet all the
OSHA safety standards require that specified              elements required for recognition.
equipment and materials (products) be tested and
certified for safety by an OSHA-recognized                OSHA’s records adequately supported its
organization. The Nationally Recognized Testing           decision to grant recognition to several
Laboratory (NRTL) program identifies organizations        organizations ED&D alleged were given
that meet OSHA requirements for testing and               recognition inappropriately. However,
certifying equipment and materials. To be                 OSHA permitted some applicants to self-
recognized as an NRTL, an organization must meet          certify they were independent and did not
OSHA’s requirements. Initial recognition, valid for 5     later verify the independence statements.
years and for a specific scope of recognition, is
granted if the application and onsite review of the       OSHA did not appropriately handle ED&D’s
organization demonstrate the applicant meets four         application in two areas. However, these
elements described in 29 CFR 1910.7 (b).                  deficiencies did not adversely impact the
                                                          outcome of ED&D’s application.
WHY OIG DID THE AUDIT
                                                          WHAT OIG RECOMMENDED
Educated Design and Development, Inc. (ED&D),
submitted an application for NRTL recognition in          We recommended that the Assistant
October 1996. ED&D filed a hotline complaint with         Secretary for Occupational Safety and
the OIG regarding its application for NRTL                Health direct staff to:
recognition. ED&D alleged that OSHA failed to                1. Make independence reviews a
fulfill its NRTL recognition responsibilities.                   mandatory part of application
                                                                 reviews and periodic audits.
The OIG conducted a performance audit of OSHA’s              2. Modify current policy to ensure that
NRTL recognition process to determine if ED&D’s                  all areas related to an NRTL’s
claims were valid with respect to negligence or                  recognition, including independence,
misconduct by OSHA. Our audit covered NRTL                       are reviewed at least once during
procedures from the date of ED&D’s application                   each 5-year recognition period.
until its closure (May 2003), relating, but not limited      3. Review two NRTLs’ current business
to, the processing of ED&D’s application.                        practices to ensure conformance
                                                                 with the independence requirement.
READ THE FULL REPORT                                         4. Ensure that incomplete applications
                                                                 are closed.
To view the report, including the scope,                     5. Maintain a log of contacts with the
methodology, and full agency response, go to:                    applicants and NRTLs.
                                                             6. Develop procedures to acknowledge
http://www.oig.dol.gov/public/reports/oa/2004/05-05-             all requests for feedback.
002-10-001.pdf
                                                          OSHA agreed with, and plans to implement,
                                                          our recommendations.
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application



Table of Contents
                                                                            Page

EXECUTIVE SUMMARY ………………………………………………………………………... 3

ASSISTANT INSPECTOR GENERAL’S REPORT ……………………………………………5

       Objective 1 and Result – To Determine if OSHA’s Decision Not to Grant
       ED&D NRTL Recognition Was Justified ……………………………………………. 6

       Objective 2 and Finding – To Determine if Other NRTLs Identified in
       ED&D’s Complaint Were Given Recognition Inappropriately …………………..11
       Recommendations 1, 2, 3 ………..……….…………….……………………..….….. 14

       Objective 3 and Finding – To Determine if OSHA Handled ED&D’s
       Application for NRTL Recognition Appropriately …….…………………………. 15
       Recommendations 4, 5, 6 …...…………………………………………..……….……19

Exhibit

       A. Timeline of ED&D’s Application .….……………………………………...…..… 25

Appendices:

       A. Background .…………………………………………………………..………….… 29

       B. Scope, Methodology, and Criteria .…………………………………………….. 31

       C. Acronyms and Abbreviations .……………………...…………………………… 33

       D. Agency’s Response to Draft Report .……………...…………………………… 35




U.S. Department of Labor—Office of Inspector General                               1
Report Number: 05-05-002-10-001
                                    OSHA Correctly Denied ED&D’s
                                      Incomplete NRTL Application




    THIS PAGE INTENTIONALLY LEFT BLANK




2              U.S. Department of Labor—Office of Inspector General
                                    Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application



Executive Summary
We conducted a performance audit of OSHA’s process to grant recognition as a
Nationally Recognized Testing Laboratory (NRTL). Our interest arose from
concerns in a hotline complaint filed by Educated Design and Development, Inc.
(ED&D) on December 31, 2002. There were allegations of negligence and
misconduct by OSHA’s NRTL evaluation group in the handling of ED&D’s
application for NRTL recognition, dated October 9, 1996. ED&D alleged that
OSHA failed to perform its job. ED&D cited other applicants that it believed
received NRTL recognition, although not qualified. ED&D stated that its requests
for NRTL status were ignored, citing a lack of any communication from OSHA.

The purpose of our audit was to determine if ED&D’s claims were valid with
respect to negligence or misconduct by OSHA. To determine this, we focused
on three objectives. We wanted to determine the answers to the following
questions:

   1. Was OSHA’s decision not to grant ED&D NRTL recognition justified?
   2. Were other NRTLs identified in ED&D’s complaint given recognition
      inappropriately?
   3. Did OSHA handle ED&D’s application for NRTL recognition appropriately?

We found that:

   1. OSHA’s records show that ED&D did not meet two of the four primary
      requirements for recognition described in 29 CFR 1910.7(b) (capability to
      test and evaluate equipment, and control of certified products), and
      questions regarding ED&D’s compliance with a third primary requirement
      (independence) were never resolved. Therefore, OSHA denied ED&D’s
      NRTL recognition and closed its application on May 12, 2003. OSHA’s
      decision was justified.

   2. ED&D alleged that OSHA unfairly favored several unqualified
      organizations by granting them NRTL recognition. OSHA’s records
      adequately supported its decision to grant recognition to Detroit Testing
      Laboratory, Inc. (DTL) and conditional recognition to Curtis-Straus LLC
      (CSL), and NSF International (NSF) because they had the capability to
      test and evaluate equipment.

       ED&D also alleged that OSHA did not impose independence restrictions
       as a manufacturer on Underwriters Laboratories (UL), U.S. Testing
       Company, Inc. (now known as SGS U.S. Testing, Inc. (SGSUS)), and
       other unnamed NRTLs. At the time of UL’s and SGSUS’s applications,
       OSHA permitted NRTL applicants to self-certify that they were
       independent of manufacturing and marketing operations. UL and SGSUS

U.S. Department of Labor—Office of Inspector General                              3
Report Number: 05-05-002-10-001
                                                      OSHA Correctly Denied ED&D’s
                                                        Incomplete NRTL Application

       provided self-certifications, thus satisfying OSHA’s requirement. While
       OSHA directives subsequently established procedures for verifying an
       NRTL’s independence, verification is not required. We believe OSHA
       should verify ongoing independence during onsite audits.

    3. We identified two areas where OSHA did not appropriately handle ED&D’s
       application. However, these deficiencies did not adversely impact the
       outcome of ED&D’s application. (1) OSHA did not follow its regulations for
       accepting applications when processing ED&D’s request for NRTL
       recognition and did not apply procedures it finalized while the ED&D
       application was open. (2) We identified two instances where OSHA could
       not document any feedback. In one other instance, cited by ED&D, we
       found that OSHA did not provide timely feedback.

We recommend that the Assistant Secretary for Occupational Safety and Health
direct staff to:

    1. Make the procedures in Appendix E of Enforcement and Compliance
       Directive CPL 1-0.3 for review of independence a mandatory part of:
       a. the initial and renewal recognition process;
       b. at least one of the annual audits performed on the NRTL during each
           5-year recognition period; and
       c. the audit that is performed after notification of a change in the NRTL’s
           ownership.
    2. Modify CPL 1-0.3 to ensure that all areas related to an NRTL’s
       recognition, including independence, are reviewed at least once during
       each 5-year recognition period.
    3. Review UL’s and SGSUS’s current business practices to ensure
       conformance with the independence requirement for NRTL recognition.
    4. Adhere to OSHA procedures when reviewing applications and performing
       onsite assessments so that incomplete applications are closed.
    5. Maintain a log of contacts with the applicants and NRTLs as part of the
       application/reapplication files.
    6. Develop procedures to acknowledge all requests for feedback (i.e.,
       followup visits or status reports).

OSHA concurred with our recommendations and its response is attached as
Appendix D. Recommendation 4 is resolved, but not closed.
Recommendations 1, 2, 3, 5, and 6 are unresolved pending the receipt of specific
implementation plans.




4                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-002-10-001
                                                             OSHA Correctly Denied ED&D’s
                                                               Incomplete NRTL Application


U.S. Department of Labor                   Office of Inspector General
                                           Washington, DC. 20210




                      Assistant Inspector General’s Report


Mr. Jonathan L. Snare
Acting Assistant Secretary
 for Occupational Safety and Health
200 Constitution Avenue, N.W.
Washington, D.C. 20210


We audited OSHA’s process to grant recognition as a Nationally Recognized
Testing Laboratory (NRTL), in response to a hotline complaint filed by Educated
Design and Development, Inc. (ED&D) regarding its application for NRTL
recognition. ED&D alleged that OSHA failed to perform its job. ED&D cited
other applicants that it believed received NRTL recognition, although not
qualified. ED&D stated that its requests for NRTL status were ignored, citing a
lack of any communication from OSHA. See Appendix A for additional
background information.

The purpose of our audit was to determine if ED&D’s claims were valid with
respect to negligence or misconduct by OSHA. To determine this we focused on
three objectives. We wanted to determine the answers to the following
questions:

   1. Was OSHA’s decision not to grant ED&D NRTL recognition justified?
   2. Were other NRTLs identified in ED&D’s complaint given recognition
      inappropriately?
   3. Did OSHA handle ED&D’s application for NRTL recognition appropriately?

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




U.S. Department of Labor—Office of Inspector General                                    5
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application

Objective 1: Was OSHA’s Decision Not to Grant ED&D NRTL Recognition
Justified?

Results

Yes. OSHA’s records show that ED&D did not meet two of the four primary
requirements for recognition described in 29 CFR 1910.7(b), and questions
regarding ED&D’s compliance with a third primary requirement (independence)
were never resolved. Specifically, ED&D did not (1) provide quality assurance
procedures to demonstrate the capability to test and evaluate equipment, (2)
demonstrate it had developed control of certified products, including a registered
certification mark and factory followup inspection procedures, and (3) provide
sufficient information to resolve OSHA’s questions about its compliance with the
independence requirement. OSHA denied ED&D NRTL recognition by closing its
application on May 12, 2003. OSHA’s decision was justified.

Capability to Test and Evaluate Equipment

To be recognized, an NRTL applicant is required to have the capability to test
and evaluate equipment for conformance with appropriate test standards.
ED&D’s application lacked complete quality control programs, one of the
elements needed to demonstrate the capability to test and evaluate equipment.

Section 1910.7 (b)(1) of CFR 29 requires quality control programs as part of the
capability element for NRTL recognition:

      For each specified item of equipment or material to be listed,
      labeled or accepted, the NRTL has the capability (including proper
      testing equipment and facilities, trained staff, written testing
      procedures, and calibration and quality control programs). . . .

At the time of ED&D’s application, October 9, 1996, OSHA was using a draft
OSHA Instruction, Enforcement and Compliance Directive CPL 1.3, Processing
Applications for NRTL Recognition (referred to as Draft SOP). The Draft SOP,
Appendix 1A, A Guide For Applying as a NRTL, was developed to assist
companies in preparing their application. A section titled “Quality Control
Programs” states:

      The laboratory should maintain complete and adequate records of
      the quality control programs and a complete file of all the
      standards, codes and regulations which are necessary in the
      evaluation of products or the performance of appropriate tests.
      Included in the above should be the maintenance of a quality
      control program and manual, and a master file of relevant safety
      and test standards.



6                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 05-05-002-10-001
                                                         OSHA Correctly Denied ED&D’s
                                                           Incomplete NRTL Application

On February 12, 2001, the OSHA assessor issued his review of the corrective
actions for the nonconformances from the assessment conducted
March 27 - 29, 2000. He reported that there were still deficiencies in ED&D’s
internal audit checklists, as follows:

       1. The instructions on the checklists do not cover all essential
          elements of the audited procedure.
       2. Actions required by the checklist do not constitute a valid
          confirmation that essential elements of the policy are being
          followed.
       3. The checklist confirms existence of assigned responsibility, not
          conformance to a policy.
       4. The documents specified in the checklist will not have the
          information needed to verify conformance with policy.
       5. Followup audits, completion of the listing and labeling
          agreements, and other areas of certification are not audited.
       6. The checklists do not require the auditor to record the
          documents examined.
       7. In some cases, although the action is technically in conformance
          with OSHA policy, the actions are so far from the norm that I
          question if the procedure will be followed.

OSHA requested a revised internal audit checklist from ED&D to further proceed
with the application. ED&D did not provide a revised checklist.

On May 12, 2003, OSHA notified ED&D it closed the ED&D application and
noted:

       . . . In addition, your application initially lacked many of the detailed
       procedures necessary for the host of activities involved in testing
       and certification of products to meet the requirements for
       recognition. . . .

       An organization must have the necessary capability both as a
       product testing laboratory and as a product certification organization
       to receive recognition from OSHA as an NRTL. The capability
       includes having qualified personnel, proper equipment and facilities,
       and policies, procedures, methods, and practices in place and in
       sufficient detail, to do the activities necessary in testing and
       certifying specific types of products for safety. While an
       organization that primarily tests products may apply, it must also
       adequately demonstrate that it is or can be a product certification
       organization.




U.S. Department of Labor—Office of Inspector General                                7
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application

Control of Certified Products

At the time of application, an NRTL applicant is required to have, or to have
applied for, a registered certification mark that will be affixed to products it
certifies, and procedures to control the certification mark. In addition, an
applicant is also required to have procedures and resources in place to conduct
inspections of manufacturer’s products for certification. ED&D did not meet
these requirements at the time of application or during the time the application
was reviewed.

Section 1910.7(b)(2) of CFR 29 defines the controls for certified products:

      The NRTL shall provide, to the extent needed for the particular
      equipment or materials listed, labeled, or accepted, the following
      controls or services:

          (i)     Implements control procedures for identifying the listed
                  and labeled equipment or materials;
          (ii)    Inspects the run of production of such items at factories
                  for product evaluation purposes to assure conformance
                  with the test standards; and
          (iii)   Conducts field inspections to monitor and to assure the
                  proper use of its identifying mark or labels on products.

In the Draft SOP, Appendix 1A, A Guide For Applying as a NRTL, a section titled
“Supplemental Information” lists additional information to be submitted with the
application, including:

      •   A sample of the laboratory’s registered certification mark (or
          evidence to the fact that one has been applied for); and
      •   Copies of the programs for conducting factory inspections for
          product evaluation and for conducting field inspections to
          monitor and assure proper use of its Federally registered
          certification mark.

On June 2, 1997, OSHA informed ED&D that its application was incomplete
because it submitted only a drawing of the proposed certification mark. On
July 8, 1997, ED&D confirmed in a letter to OSHA that it had not registered its
mark with the U. S. Patent Office.

Likewise, OSHA’s June 2, 1997, letter informed ED&D that it did not provide
followup and field inspection procedures. ED&D had submitted a Quality
Assurance Manual that appeared to pertain mainly to products manufactured by
ED&D, not the products it would be inspecting at other manufacturers. ED&D
responded in the July 8, 1997, letter that it was in the process of writing
procedures for factory followup and field inspections.


8                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-002-10-001
                                                         OSHA Correctly Denied ED&D’s
                                                           Incomplete NRTL Application

OSHA’s onsite assessment, dated March 27 - 29, 2000, reported that ED&D still
had not developed or written procedures for the certification process. On
May 12, 2003, OSHA closed the ED&D application and noted ED&D had not
submitted factory followup inspection procedures for the control programs.

Independence

An NRTL applicant is required to be independent of manufacturers, users,
suppliers, and distributors of products for which OSHA requires NRTL
certification, and major users of such products. ED&D’s application and
subsequent OSHA assessments show that questions regarding ED&D’s
compliance with independence requirements were never resolved.

Section 1910.7 (b)(3) of CFR 29 defines the independence element for NRTL
recognition:

       The NRTL is completely independent of employers subject to the
       tested equipment requirements, and of any manufacturers or
       vendors of equipment or materials being tested for these purposes.

In the Draft SOP, Appendix 1A, A Guide For Applying as a NRTL, a section titled
“Required Evidence of Independence” states:

       Written evidence of the independence of the applicant should be
       presented to achieve objectivity and preclude conflict of interest
       and to meet the provisions of 29 CFR 1910.7, i.e., applicant must
       be totally independent financially and administratively of the
       manufacturer, user, supplier, and distributor. The laboratory should
       be primarily engaged in testing and certifying activities and not in
       design, promotion, or consultation with respect to the products(s)
       being tested. In addition, the security of employment for laboratory
       employees should not be under the influence or control of
       manufacturers or suppliers.

Federal Register, Vol. 60 No. 46, dated March 9, 1995, issued a Notice of
Interpretation to clarify the types of programs and procedures that NRTLs may
engage in under the program. Regarding independence, the Background states,
in part:

       Independence also does not mean that an NRTL has to carry out
       all of its functions totally separate from other entities, including the
       manufacturer. Simply put, the independence means that the
       analytical and decision making process, which are the critical
       functions that must be performed, are accomplished by an
       organization which is financially independent of manufacturers,
       vendors, and users of certified products.


U.S. Department of Labor—Office of Inspector General                                9
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application

      . . . As long as the NRTL, which was not economically affiliated with
      the manufacturer, had ultimate authority and responsibility for the
      approval of the product and use of the certification mark, the needs
      of independence would be satisfied.

OSHA reviewed ED&D’s October 1996 application and, in a letter dated
June 2, 1997, asked ED&D to respond to the following questions:

      •   Clarify what is meant by “equipment under our testing
          capabilities.”
      •   If ED&D were to receive NRTL recognition, will it manufacture,
          then test and certify equipment falling within the scope of any of
          the safety standards for which it is recognized?
      •   Refer to the section of the application guidelines titled
          “Affiliation.” Do any owners, officer, Member of the Board of
          Directors, or other official of ED&D hold more than two percent
          of stock in any corporation that is a manufacturer or supplier of
          products which ED&D will or may certify?

ED&D provided the following responses to OSHA in a July 8, 1997, letter:

      •   The reference to “equipment under our testing capabilities” simply
          means any equipment we resale or manufacture. When the time
          comes to obtain certification on this equipment, we will employ the
          services of one of the other NRTLs (UL, ETL, CSA).
      •   Again, we will not certify our own equipment, and intend to employ the
          services of one of the other NRTLs (UL, ETL, CSA).
      •   No, the owners, officers and board members of ED&D do not own
          more than 2% stock in any corporation whose products we would
          certify.

On March 5, 1999, OSHA reported on the first followup assessment of ED&D
and noted:

      ED&D manufactures and sells a line of electrical test equipment.

In August 25, 2000, an ED&D official informed OSHA:

      Due to the testing services market, ED&D and its owners/officers are
      divesting itself of its equipment sales division. As this was an action item
      on OSHA’s previous comments, we believe this recent decision should
      assist if this was a consideration with regard to testing labs involved in
      sale of equipment. We can provide you details with our progress of the
      sale of this division at your request, but would hope to have it finalized
      before the end of 2000.


10                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

To become an NRTL, an applicant had to be independent of all manufacturing
and distributing of products being tested and primarily engaged in testing and
certifying activities. Questions regarding ED&D’s compliance with independence
requirements were never resolved. OSHA’s May 13, 2003, letter notifying ED&D
it was closing the application noted:

       . . . Finally, as noted in our June 2nd [1997] letter, ED&D did not
       appear to meet the requirements for independence of an NRTL and
       the most recent information provided by our assessor indicates that
       ED&D continued to fail to meet this requirement.

In its complaint, ED&D did not disclose whether it was successful in selling the
testing equipment division.


Objective 2: Were Other NRTLs Identified in ED&D’s Complaint Given
Recognition Inappropriately?

Finding

No. ED&D alleged that OSHA unfairly favored several unqualified organizations
by granting them NRTL recognition. OSHA’s records adequately supported its
decision to grant recognition to Detroit Testing Laboratory, Inc. (DTL) and
conditional recognition to Curtis-Straus LLC (CSL), and NSF International (NSF)
because they had the capability to test and evaluate equipment. ED&D could not
be considered for complete or conditional recognition because it had not
demonstrated capability, as discussed on page 6.

ED&D also alleged that OSHA did not impose independence restrictions as a
manufacturer on Underwriters Laboratories (UL), U.S. Testing Company, Inc.
(now known as SGS U.S. Testing, Inc. (SGSUS)), and other unnamed NRTLs.
At the time of UL’s and SGSUS’s applications, OSHA permitted NRTL applicants
to self-certify that they were independent of manufacturing and marketing
operations. However, OSHA did not verify the independence statements.
Further, OSHA did not verify independence during the annual onsite audit of
SGSUS.

Recognition of Selected Entities

ED&D alleged that OSHA unfairly favored several unqualified organizations by
granting them NRTL recognition before they met the requirements. The
complaint named DTL, CSL, and NSF. OSHA granted recognition to DTL
because it met the four elements described in 29 CFR 1910.7(b). OSHA granted
conditional recognition to CSL and NSF because they met the capability to
perform requirement.


U.S. Department of Labor—Office of Inspector General                               11
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application

OSHA’s files documented that DTL met the four elements for recognition.
OSHA’s files also documented the determination to grant conditional recognition
to CSL and NSF.

Per OSHA, Section 1910.7 of CFR 29, Appendix A, Subsection I.C. provides for
conditional recognition:

       The recognition by OSHA of any NRTL will be evidenced by a letter
       of recognition from OSHA. The letter will provide the specific
       details of the scope of the OSHA recognition, . . . as well as any
       specific conditions imposed by OSHA [emphasis added].

Per OSHA, Directive CPL 1-0.3, NRTL Program Policies, Procedures, and
Guidelines, dated December 2, 1999, refers to conditional recognition in Chapter
5, Paragraph II.D.3 with regard to the Assistant Secretary’s approval of
recognition:

       . . .This letter or document sets forth the terms of recognition, which
       include the scope of recognition, specific conditions and limitations
       imposed by OSHA . . . [emphasis added].

Conditional recognition may be granted if an NRTL meets the requirements but
has just developed procedures that are not yet implemented. In this case, OSHA
has not had the opportunity to review the implementation. Therefore, if OSHA
believes the NRTL has the capability to perform, OSHA may grant conditional
recognition but reserve the right to conduct followup visits once the NRTL
implemented and performed procedures. The requirements of 29 CFR 1910.7
are based upon capability, rather than experience.

On May 8, 2000, the Federal Register published notice of OSHA’s conditional
recognition of CSL and explained the reason for conditional recognition. CSL
had not tested products to all requirements of a test standard, since it had just
finished developing procedures. As a result, OSHA had not evaluated
implementation of the testing and procedures CSL would use nor CSL’s
operations while using the procedures. OSHA granted conditional recognition
with the proviso that CSL notify the OSHA NRTL Program Director within 30 days
of certifying its first products so that OSHA could review CSL’s implementation
procedures.

NSF was originally granted conditional recognition on December 10, 1998.
However, ED&D’s allegation provided a copy of the June 28, 2000, Federal
Register notice for expansion of NSF’s recognition for eight additional test
standards explaining the reason for conditional recognition. NSF had not had an
opportunity to perform its first certification of either the original or these additional
products under the NRTL program. OSHA granted conditional recognition with
the proviso that NSF notify the OSHA NRTL Program Director within 30 days of


12                                 U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

certifying its first products so that OSHA could review NSF’s implementation
procedures.

ED&D could not be considered for conditional recognition because it had not
demonstrated capability, as discussed on page 6.

Independence

ED&D also alleged that OSHA did not impose independence restrictions as a
manufacturer on UL, SGSUS, and other unnamed NRTLs. As discussed on
page 9, an NRTL applicant is required to be independent of suppliers or major
users of products NRTLs must certify and independent of the manufacture or
distribution of such products. At the time of UL’s and SGSUS’s applications,
OSHA permitted NRTL applicants to self-certify that they were independent of
manufacturing and marketing operations. UL and SGSUS provided self-
certifications, thus satisfying OSHA’s requirement. While OSHA directives
subsequently established procedures for verifying an NRTL’s independence,
verification is not required. We believe OSHA should verify ongoing
independence during onsite audits.

UL was one of two testing laboratories grandfathered as an NRTL in 1988. In
preparation for the initial assessment for renewal in 1993, UL submitted a
Statement of Independence in September 1992. Our review of OSHA’s files
documents that OSHA accepted the Statement of Independence from UL without
verification.

SGSUS received NRTL recognition in March 1993. OSHA also relied on a
Statement of Independence from SGSUS at the time of NRTL recognition without
verification.

Subsequent to these recognitions, OSHA Directive CPL 1-0.3, dated
December 2, 1999, includes procedures for reviewing independence as part of
an annual onsite audit in Appendix E, Part IV. However, these procedures are
only guidelines, not requirements.

OSHA did not review SGSUS for conformity with the NRTL independence
requirements during its annual onsite audit of SGSUS on July 11 - 12, 2000.
OSHA’s report, dated August 8, 2000, states in the Background:

       This audit did not acquire any additional information on the
       organizational or ownership structure of SGS that would question
       the independence of the organization.




U.S. Department of Labor—Office of Inspector General                             13
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application

The report Recommendation states:

      This on site audit did not discover any factors that would lead to a
      recommendation that the recognition of this SGS facility as a
      Nationally Recognized Testing Facility, be revoked.

While OSHA has policies and procedures for reviewing independence as part of
an annual review, OSHA did not review independence in this instance.

UL and SGSUS provided a self-certification with their applications, thereby
meeting the requirements at the time. However, this control would be
strengthened if verified by OSHA. We believe OSHA should verify ongoing
independence through onsite audits.

Recommendations

Our draft report had three recommendations to address conditions described in
this finding. The recommendations, OSHA’s response to each recommendation,
and the auditor’s conclusion for each recommendation follow.

Recommendation 1

We recommend that the Assistant Secretary for Occupational Safety and Health
direct staff to make the procedures in Appendix E of CPL 1-0.3 for review of
independence a mandatory part of:

      a. the initial and renewal recognition process;
      b. at least one of the annual audits performed on the NRTL during each
         5-year recognition period; and
      c. the audit that is performed after notification of a change in the NRTL’s
         ownership.

Response

OSHA agrees with this recommendation. OSHA plans to develop and implement
more detailed and comprehensive procedures for the independence review.

Auditor’s Conclusion

This recommendation is unresolved pending the receipt of a specific plan
detailing independence review procedures, which includes a time line for
accomplishing the proposed corrective actions.




14                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

Recommendation 2

We recommend that the Assistant Secretary for Occupational Safety and Health
direct staff to modify CPL 1-0.3 to ensure that all areas related to an NRTL’s
recognition, including independence, are reviewed at least once during each
5-year recognition period.

Response

OSHA agrees with this recommendation and will implement it.

Auditor’s Conclusion

This recommendation is unresolved pending the receipt of a specific plan
detailing independence review procedures, which includes a time line for
accomplishing the proposed corrective actions.

Recommendation 3

We recommend that the Assistant Secretary for Occupational Safety and Health
direct staff to review UL’s and SGSUS’s current business practices to ensure
conformance with the independence requirement for NRTL recognition.

Response

OSHA agrees with this recommendation and will implement it concurrently with
the implementation of Recommendation 1.

Auditor’s Conclusion

This recommendation is unresolved pending the receipt of a specific plan
detailing independence review procedures and a time line for completion, to
include UL and SGSUS.


Objective 3: Did OSHA Handle ED&D’s Application for NRTL Recognition
Appropriately?

Finding

No. We identified two areas where OSHA did not appropriately handle ED&D’s
application. However, these deficiencies did not adversely impact the outcome
of ED&D’s application. (1) OSHA did not follow its regulations for accepting
applications when processing ED&D’s request for NRTL recognition and did not
apply procedures it finalized while the ED&D application was open. (2) We
identified two instances where OSHA could not document any feedback. In one

U.S. Department of Labor—Office of Inspector General                             15
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application

other instance, cited by ED&D, we found that OSHA did not provide timely
feedback.

ED&D’s application should have been complete when submitted. It was not
OSHA delays or neglect that ultimately resulted in ED&D being denied
recognition, but rather ED&D’s incomplete application that did not include
complete Quality Assurance procedures, followup inspection procedures, nor
evidence of independence (see Objective 1).

Closing the Application

OSHA did not follow its regulations for accepting applications when processing
ED&D’s request for NRTL recognition. Further, OSHA procedures finalized
while the ED&D application was open were not applied to the ED&D application.
Because ED&D’s application was incomplete, OSHA never “accepted” it.
However, OSHA continued to respond to ED&D’s correspondence and conduct
onsite assessments, which provided additional opportunities for ED&D to correct
non-conformances. OSHA eventually closed ED&D’s application without
granting NRTL certification and expended a great deal of staff resources during
the process.

ED&D submitted its application for NRTL recognition on October 9, 1996. On
June 2, 1997, OSHA informed ED&D in writing that the application was
incomplete and needed clarification. OSHA stated in this notification letter that it
would continue processing the application as soon as it received ED&D’s
response. Although ED&D responded to OSHA on July 8, 1997, the response
did not adequately demonstrate that ED&D met the independence requirement.
In addition, ED&D did not have written procedures for factory followup
inspections at the time of application, as required. Instead, it promised to
complete them by August 1997.

OSHA conducted its initial onsite assessment of ED&D in October 1997, and
issued its report November 6, 1997. Excerpts from the report include:

       . . .This report consists of a summary of the non-conformities with
       29 CFR 1910.7 we found during the recent assessment. By
       December 15 please send me your anticipated schedule for
       completing the corrective action.

       This report is not a comprehensive list of non-conformance but is
       simply some of the major items we encountered in the assessment.
       Because the ED&D quality system is still in its development stages,
       bringing ED&D into compliance with 29 CFR 1910.7 will involve not
       just correcting the non-conformities identified onsite, but also
       implementing all the elements of an effective and working quality
       system. Once you have corrected all the non-conformance and


16                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

       implemented an effective quality system, please send me a
       summary of the corrective actions taken. If I need additional
       documentation, I will request it after I receive your summary of
       corrective actions. . . .

ED&D responded on December 13, 1997, with a proposed schedule for
addressing the corrective actions. The letter states: “We estimate having an
effective qualify system implemented by December of 1998, including internal
audits and corrective actions.”

OSHA continued responding to ED&D’s correspondence, indicating that OSHA
could not proceed with an evaluation of ED&D until all nonconformances had
been corrected. In February 1999, OSHA conducted a followup assessment, in
response to ED&D’s corrective action from the October 1997 assessment. The
report on this assessment, dated March 5, 1999, listed 20 nonconformances and
15 “other findings.”

Throughout the remainder of 1999, ED&D continued to send correspondence
promising documents or providing documents with corrective actions. In
January 2000, the lead assessor wrote to an ED&D official regarding a recent
package of information he received. In response to apparent requests about the
time frame for continuing the certification process, the lead assessor wrote:

       . . . The usual process is that the non-conformances are corrected
       in a few months after the initial onsite assessment and the
       assessment report is sent to Washington sometime after that . . .
       ED&D, on the other hand, had just started to implement a quality
       program at the time of the NRTL application. Consequently the
       number and seriousness of the non-conformances were much
       higher than normal. In my followup assessment, I still found
       numerous nonconformances . . . after reading your documentation I
       hope I will have confidence that ED&D meets all the requirements
       to become a NRTL. If I determine ED&D meets the requirements, I
       will prepare a report for Washington.

       If I feel ED&D does not yet meet the requirements, the course is not
       as clear-cut. I have already spent a great deal of time assisting
       ED&D. My role is suppose (sic) to be to evaluate, not train.
       Technically OSHA could reject the ED&D application as not
       meeting requirements. I hope to avoid that, but if I send up a report
       before ED&D meets all the requirements or spend a great deal of
       more time training/assisting, that is the likely outcome.

OSHA conducted a second followup assessment in March 2000. The
April 18, 2000, report again listed nonconformances and requested a timetable
for completing the corrective actions by May 15, 2000.


U.S. Department of Labor—Office of Inspector General                             17
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application


Appendix A to 29 CFR 1910.7, Subsection I.B. outlines the review and decision
process for NRTL issuance:

       1. “Acceptance and onsite review.”
          a. Applications submitted by eligible testing agencies will be
             accepted by OSHA, and their receipt acknowledged in
             writing. After receipt of the application, OSHA may request
             additional information if it believes information relevant to the
             requirements for recognition has been omitted.
          b. OSHA shall, as necessary, conduct an onsite review of the
             testing facilities of the applicant . . .
          c. . . . A written report shall be made of each onsite review and
             a copy shall be provided to the applicant . . .
       3. “Negative finding by staff.”
          a. “Notification to applicant.” If, after review of the application,
             any additional information and the onsite report, the
             applicant does not appear to have met the requirements for
             recognition, the responsible OSHA personnel shall notify the
             applicant in writing, listing the specific requirements of
             1910.7 and this Appendix which the applicant has not met,
             and allow a reasonable period for response.

We believe the ED&D application was allowed to continue so long because
OSHA did not have clear and complete application review procedures
implementing the regulations at the time of ED&D’s application. We reviewed a
Draft SOP that OSHA was using at the time of ED&D’s application. We were told
that, although it was being used, parts were never implemented.

In December 1999, OSHA finalized and issued procedures for processing
applications in OSHA Directive CPL 1-0.3. However, these procedures were not
applied to the ED&D application in process. Chapter 3, Section II.A of the
Directive has provisions for notifying the applicant if the application is incomplete
or inadequate upon initial review after receipt:

       If an application is frivolous or grossly incomplete or inadequate,
       the Director returns the application, notifying the applicant in writing
       that processing cannot proceed and explaining why this action is
       necessary, and takes no further action. The Director processes
       any future application from the applicant as a new application,
       following the review procedures in this Appendix C.

Following the implementation of these procedures, OSHA conducted a second
followup assessment of ED&D in March 2000. Instead of closing the application,
OSHA again gave an opportunity for ED&D to complete corrective actions.



18                                U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

Providing Timely Feedback

ED&D alleged OSHA failed to respond timely to its inquiries regarding the
acceptability of the information provided to OSHA. In two instances, OSHA could
not document any feedback. In one other instance, cited by ED&D, we found
that OSHA did not provide timely feedback.

We compared the five instances of untimely response cited by ED&D to OSHA’s
application timeline. See the table below:

          ED&D’s Requests          Response, Per OSHA’s           Lapse
            for Feedback             Application Timeline
         December 13, 1997       Response not documented
         January 15, 1999        Followup February 18, 1999      1 month
         March 31, 1999          Response not documented
         April 10, 2000          Followup April 18, 2000         1 week
         June 20, 2000           On August 28, 2000, OSHA        8 months
                                 promised feedback;
                                 Progress Report dated
                                 February 12, 2001

We concluded that there was a significant lapse (8 months) in responding to
ED&D’s June 20, 2000, e-mail, which asked for the status of OSHA’s
acceptability on their completed audit finding items. For two other inquiries, we
concluded there was no significant delay. In two other instances, OSHA’s
timeline did not document a response to ED&D’s inquiry.

The OSHA Lead Assessor did not retain all of the incoming e-mails, and did not
maintain a log to keep track of contacts with applicants and NRTLs. OSHA’s
Assessment and Audit Schedule shows the Lead Assessor was responsible for
finalizing 11 other assessment reports with no support staff during the time
ED&D’s application was open. OSHA should have documented contacts with all
applicants to ensure that all requests for feedback were acknowledged in a timely
manner.

Recommendations

Our draft report had three recommendations to address conditions described in
this finding. The recommendations, OSHA’s response to each recommendation,
and the auditor’s conclusion for each recommendation follow.

Recommendation 4

We recommend that the Assistant Secretary for Occupational Safety and Health
direct staff to adhere to OSHA procedures when reviewing applications and
performing onsite assessments so that incomplete applications are closed.

U.S. Department of Labor—Office of Inspector General                                19
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application

Response

OSHA agrees with this recommendation and has adhered to this procedure for
all applications received since the effective date of its Program Directive in
December 1999. OSHA believes that continuation of this existing practice will
implement this recommendation.

Auditor’s Conclusion

We consider this recommendation resolved because OSHA officials are currently
adhering to procedures when reviewing applications and performing onsite
assessments so that incomplete applications are closed. OSHA will need to
provide evidence of adhering to these procedures for the recommendation to be
closed.

Recommendation 5

We recommend that the Assistant Secretary for Occupational Safety and Health
direct staff to maintain a log of contacts with the applicants and NRTLs as part of
the application/reapplication files.

Response

OSHA agrees with this recommendation and has begun to implement it. The
agency has developed a phone log for detailing substantive contacts with each
applicant. OSHA will also develop a chronological log for each staff to capture all
contacts with applicants or other parties.

Auditor’s Conclusion

This recommendation is unresolved pending the receipt a specific plan, including
blank copies of these phone logs and instructions for staff implementation, and a
time line for accomplishing the proposed corrective actions.

Recommendation 6

We recommend that the Assistant Secretary for Occupational Safety and Health
direct staff to develop procedures to acknowledge all requests for feedback (i.e.,
followup visits or status reports).

Response

OSHA agrees with this recommendation and will implement it. OSHA’s current
operational goal is to respond to requests for feedback within three working days.
OSHA maintains a tracking system for tasks, projects, and other assignments.
Pending NRTL applications are tracked under this system. While OSHA has


20                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

controls in place, it will augment them to more fully comply with the intent of this
recommendation.

Auditor’s Conclusion

While OSHA tracks NRTL applications, it is important that every request for
feedback be tracked and timely answered. This recommendation is unresolved
pending the receipt of a specific plan, including evidence of a system to
document both the request for feedback and that the request has been
acknowledged and appropriately handled, and a timeline for accomplishing the
proposed corrective actions.




Elliot P. Lewis
March 23, 2004




U.S. Department of Labor—Office of Inspector General                               21
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application




                  THIS PAGE INTENTIONALLY LEFT BLANK




22                             U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application




Exhibit




U.S. Department of Labor—Office of Inspector General                             23
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application




                  THIS PAGE INTENTIONALLY LEFT BLANK




24                             U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 05-05-002-10-001
                                                                  OSHA Correctly Denied ED&D’s
                                                                    Incomplete NRTL Application

                                                                                         EXHIBIT A

                            Timeline of ED&D’s Application
                                 (Provided by OSHA)


         Date                                           Description
October 9, 1996      Date of Application
June 2, 1997         OSHA letter to ED&D to detail deficiencies in application
July 8, 1997         ED&D’s letter responding to OSHA’s June 2nd letter
October 16, 1997     Initial OSHA assessment completed
November 6, 1997     OSHA report on assessment
September 8, 1998    OSHA followup letter to ED&D on continuing deficiencies (references August 31st
                     ED&D letter)
October 26, 1998     ED&D’s e-mail to OSHA assessor re: sending several documents to address
                     deficiencies found during October 16, 1997 assessment
November 9, 1998     ED&D’s amendment requesting adding Program 4 to their scope
February 18, 1999    First OSHA followup assessment completed
March 5, 1999        OSHA report on first followup assessment
April 26, 1999       ED&D’s e-mail to assessor promising documents addressing corrective actions of
                                      th
                     the February 18 assessment
May 25, 1999         ED&D’s e-mail to assessor regarding additional documents to address deficiencies
                     found during the February 18th assessment
June 28, 1999        ED&D’s e-mail to assessor regarding final items to address corrective actions of
                     the February 18th assessment
March 6, 2000        ED&D’s letter to assessor with reports of internal audit
March 29, 2000       Second OSHA followup assessment completed
April 18, 2000       OSHA report on second followup assessment
May 3, 2000          Document showing ED&D’s “timeline to complete audit issues” resulting from the
                     March 29 assessment
May 9, 2000          ED&D’s e-mail to assessor regarding items to address several corrective actions of
                     the March 29th assessment
May 10, 2000         ED&D’s e-mail to assessor stating they would send package addressing corrective
                                              th
                     actions (of the March 29 assessment) in its entirety
June 2, 2000         ED&D’s e-mail stating that package referred to in May 10th e-mail would be sent in
                     a few days
June 5, 2000         E-mail response by assessor to ED&D’s June 2nd e-mail agreeing to extra time
June 2000            ED&D’s response received (consists of several binders)
June 20, 2000        ED&D’s e-mail asking about progress of review of their response
August 25, 2000      ED&D’s e-mail requesting status and indicating sale of equipment division of ED&D
October 20, 2000     ED&D provided checklists for internal audits (assessor prepared handwritten notes
                     on review of checklists)
December 11, 2000    OSHA internal memorandum from assessor recommending that ED&D’s
                     application be rejected
January 3, 2001      E-mail from ED&D just keeping in touch
February 12, 2001    OSHA letter to ED&D on continuing deficiencies
September 12, 2001   ED&D’s e-mail with status report (Indicated expected completion of corrective
                     actions by December 15, 2001)
December 14, 2001    More information provided by ED&D on internal audits and audit conducted by
                     consultant (who found 24 non-conformances)
January 2002         Undocumented call from ED&D to assessor saying more information forthcoming
January 13, 2003     Recommendation by assessor to close application (Mentions that assessor’s last
                     contact with ED&D was December 2001, at which time ED&D indicated that it was
                     planning major changes in its operations – nothing received to date)
May 12, 2003         OSHA letter to ED&D closing the application




U.S. Department of Labor—Office of Inspector General                                                 25
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application




                  THIS PAGE INTENTIONALLY LEFT BLANK




26                             U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application




Appendices




U.S. Department of Labor—Office of Inspector General                             27
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application




                  THIS PAGE INTENTIONALLY LEFT BLANK




28                             U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

                                                                      APPENDIX A

Background

NRTL Program

OSHA safety standards require that specified equipment and materials
(products) be tested and certified for safety by an OSHA-recognized
organization. The NRTL program identifies organizations that meet OSHA
requirements for testing and certifying equipment and materials. To be
recognized as an NRTL, an organization must meet OSHA’s requirements. Initial
recognition, valid for 5 years and for a specific scope of recognition, is granted if
the application and onsite review of the organization demonstrate the applicant
meets four elements described in 29 CFR 1910.7 (b):

   •   capability to test and evaluate equipment;
   •   control of certified products;
   •   independence; and
   •   procedures to produce credible findings.

A clarification of this regulation, printed in the Federal Register on March 9, 1995
states:

       These four elements that define an NRTL are incorporated into the criteria
       for the various types of procedures, which OSHA approves, and, when
       followed, provide OSHA with a reasonable degree of assurance that the
       products may be used safely in the workplace.

ED&D

Educated Design and Development, Inc. (ED&D) submitted an application for
NRTL recognition on October 9, 1996. OSHA notified ED&D it was closing the
application on May 12, 2003. See Exhibit A for a timeline of events while OSHA
was considering ED&D’s application.

On October 1, 2002, ED&D filed a hotline complaint regarding its application for
NRTL recognition. ED&D alleged that OSHA failed to perform its job. ED&D
cited other applicants that it believed received NRTL recognition, although not
qualified. ED&D stated that its requests for NRTL status were ignored, citing a
lack of any communication from OSHA. The Inspector General responded to the
initial complaint stating that it was unlikely the OIG would initiate a review of
OSHA’s activities or conduct in this matter unless we received some specific
information that supports a claim of fraud or misconduct.

On December 31, 2002, ED&D provided additional documentation to support its
allegations, organized in six areas:

U.S. Department of Labor—Office of Inspector General                              29
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application

     1. Unfair consideration with respect to comparison to other companies
        receiving the NRTL status.
     2. Written OSHA favoritism to other corporations and “favors” extended
        where their companies fell short of qualifying for NRTL status.
     3. Proof that without this program certification laboratories are restricted from
        doing business not only in the United States of America but globally.
     4. The delays and neglect from NRTL auditor (name withheld) have
        eliminated us as competition to other certification corporations.
     5. Restrictions imposed on our organization as a hardware manufacturer in
        pursuit of the NRTL status that are not imposed on other existing and new
        NRTLs.
     6. ED&D has lost employees, customers, and substantial opportunity in
        addition to significant capital due to OSHA’s actions and decisions.




30                                 U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

                                                                     APPENDIX B

Scope, Methodology, and Criteria

Scope and Methodology

We conducted an audit of OSHA’s NRTL recognition process to determine if
ED&D’s claims were valid with respect to negligence or misconduct by OSHA
(Allegations 1, 2, 4, and 5 – see page 30). Our audit covered NRTL procedures
from the date of ED&D’s application (October 9, 1996) until its closure
(May 12, 2003), relating, but not limited to, the processing of ED&D’s application.

To determine the merits of these allegations, we reviewed ED&D’s
documentation submitted to support its complaint, OSHA’s policies and
procedures, and OSHA’s documentation pertaining to ED&D’s application and
other NRTL applications mentioned in the allegations. We also interviewed
OSHA staff responsible for administering the NRTL program, assessing NRTL
applications, and performing onsite assessments.

OIG did not review any documentation or make a determination on the validity of
Allegations 3 and 6 (see page 30) because they are not issues related to OSHA’s
program or performance.

Management Controls

To meet our objectives, we reviewed management controls over relevant
activities. Our management controls work included obtaining and reviewing
policies and procedures manuals, interviewing key personnel, and reviewing
selected transactions to observe the controls in place. Our testing of
management controls focused only on the controls related to our audit objective
of reviewing the NRTL’s process for recognition and was not intended to form an
opinion on the adequacy of overall management controls, and we do not render
such an opinion. Weaknesses noted in our testing are discussed in
Objectives 1, 2, and 3 of this report.

Compliance with Laws and Regulations

Our testing of OSHA’s compliance with 29 CFR 1910.7, regarding requirements
of an accredited NRTL program, was limited to ED&D and entities listed in its
allegation. This testing was not intended to form an opinion on compliance with
laws and regulations as a whole, and we do not render such an opinion.

Auditing Standards

We conducted our audit in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States.

U.S. Department of Labor—Office of Inspector General                             31
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application

Those standards require that in planning and performing a performance audit, we
use an objective and systematic examination of evidence for the purpose of
providing an independent assessment of the performance of OSHA.

We performed fieldwork May 21, 2003, through March 23, 2004, at the Office of
Technical Programs and Coordination Activities (OTPCA) in Washington, DC; the
OSHA Technical Center in Cincinnati, Ohio; and the OSHA OTPCA assessment
field office in Tridelphia, West Virginia.

An audit made in accordance with these standards provides reasonable
assurance that its objectives have been achieved; but it does not guarantee the
discovery of illegal acts, abuse or all internal control weaknesses. Providing an
opinion on compliance with all laws, regulations, and other compliance
requirements or internal controls was not an objective of our audit and
accordingly, we do not express such an opinion. We believe our audit provides a
reasonable basis for our assessment and conclusions.

The conclusions provided in this report are the result of our performance audit of
OSHA’s NRTL procedures during the period of ED&D’s application,
October 9, 1996, through May 12, 2003. Changes in management of the
program, including changes in controls or laws, regulations, and other
compliance requirements could result in performance that would be different from
the performance during that period. Therefore, this report should not be used to
evaluate performance results of future periods.

Criteria

We used the following criteria to perform this audit:

       •   Public Law 91-596, Occupational Safety and Health Act of 1970, and
           amendments
       •   Federal Register, Vol. 60, No. 46, dated March 9, 1995 – Nationally
           Recognized Testing Laboratories; Clarification of the Types of
           Programs and Procedures
       •   29 CFR 1910.7 – Occupational Safety and Health Standards,
           Definition and requirements for a nationally recognized testing
           laboratory, including Appendix A
       •   OSHA Instruction CPL 1.3, Processing Application for NRTL
           Recognition (Draft Standard Operating Procedures)
       •   OSHA Directive CPL 1-0.3, NRTL Program Policies, Procedures, and
           Guidelines, dated December 2, 1999




32                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

                                                                     APPENDIX C

Acronyms and Abbreviations

CFR           Code of Federal Regulations
CPL           Enforcement and Compliance Directive
CSL           Curtis-Strauss LLC
DTL           Detroit Testing Labs
ED&D          Educated Design and Development, Inc.
NRTL          Nationally Recognized Testing Laboratory
NSF           NSF International
OSHA          Occupational Safety and Health Administration
OTPCA         OSHA’s Office of Technical Programs and Coordination Activities
PC            Program Coordinator
SGSUS         SGS U.S. Testing, Inc.
SOP           Standard Operating Procedure
UL            Underwriters Laboratories




U.S. Department of Labor—Office of Inspector General                             33
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application




                  THIS PAGE INTENTIONALLY LEFT BLANK




34                             U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application




Response To Draft Report




U.S. Department of Labor—Office of Inspector General                             35
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application




                  THIS PAGE INTENTIONALLY LEFT BLANK




36                             U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application

                                                                     APPENDIX D




U.S. Department of Labor—Office of Inspector General                             37
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application




38                             U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application




U.S. Department of Labor—Office of Inspector General                             39
Report Number: 05-05-002-10-001
OSHA Correctly Denied ED&D’s
Incomplete NRTL Application




40                             U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 05-05-002-10-001
                                                       OSHA Correctly Denied ED&D’s
                                                         Incomplete NRTL Application




U.S. Department of Labor—Office of Inspector General                             41
Report Number: 05-05-002-10-001
